*•»

./i
Case 4:15-cv-00461-JEG Document 54 Filed 09/14/20 Page 1 of 12

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
AMBUS RAY DAVIS, III,
No. 4:1 S-cv-00461-JEG

Petitioner,
vs.
NICK LUDWICK,

ORDER DENYING
APPLICATION FOR HABEAS
CORPUS RELIEF

Respondent.
Petitioner Ambus Ray Davis III brought this petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2254 challenging his state court convictions from Scott County, Iowa. Pet., ECF
No. 1. The parties have submitted briefs to support their respective positions, and the matter is
fully submitted.1 See PetYs Br., ECF No. 42; Resp’f s Br., ECF No. 47; Pet’r’s Reply, ECF
No. 50. For the reasons that follow, the Court finds Davis is not entitled to federal habeas
corpus relief.
I.

FACTUAL AND PROCEDURAL BACKGROUND
In May 2005, following a '‘heated conversation,” Davis shot Jalon Thomas as he ran away

from Davis. State v. Davis, No. 06-0148, 2007 Iowa App. LEXIS 216, at *2-3 (Iowa Ct. App.
Feb. 28, 2007) (“Davis F). The state district court found Davis guilty of first-degree murder,
willful injury, and going armed with intent. Id. at *1-2.
Davis’ conviction was upheld on direct appeal, id., and after postconviction relief pro­
ceedings. See Davis v. State, No. 13-1630, 2015 LEXIS 672 (Iowa Ct. App. Aug. 5, 2015)
(“Davis IF).
Davis then filed this federal petition for a writ of habeas corpus. Pet., ECF No. 1. With
the assistance of counsel, Davis amended his petition to raise two additional claims. Am. Pet.,
ECF No. 11-1. Upon Respondent’s motion, the Court previously dismissed Grounds Two and

i

Petitioner filed a pro se brief in support of his petition. See Pro Se Mo., ECF No. 36. Davis is
represented by counsel in this matter, and the Court did not consider the pro se pleading.

Case 4:15-cv-00461-JEG Document 54 Filed 09/14/20 Page 2 of 12

Three, of the petition. See Order, ECF No. 35. The Court now addresses the remaining ground,
which alleges ineffective assistance of trial and appellate counsel.'
II.

STANDARD OF REVIEW
A federal court may consider an application “for a writ of habeas corpus in behalf of a

person in custody pursuant to the judgment of a State court only on the ground that he is in
custody in violation of the Constitution or laws or treaties of the United States.” 28 U.S.C.
§ 2254(a). For claims properly before a federal court, a writ of habeas corpus shall be granted ■
only if the prior adjudication of the claim:
(1) resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the United
States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding.
.
.

,

28 U.S.C. § 2254(d)(1) and (2).
“[A]n ‘unreasonable application of those holdings must be ‘objectively unreasonable,’
not merely wrong; even .‘clear error’ will not suffice.” White v. Woodall, -572 U.S. 415,419
(2014) (quoting Lockyer v, Andrade, 538 U.S. 63, 75-76 (2003)). This “difficult to meet”

-

standard requires a petitioner to demonstrate “that the state court’s ruling on the claim being
presented in federal court was so lacking in justification that there was an error well understood
and comprehended in existing law beyond any possibility for fairminded disagreement.” Id. at
419-20 (quoting Harrington v. Richter, 562 U.S. 86, 103 (2011)); see also Woods v. Etherton, ■
136 S. Ct. 1149, 1151 (2016) (per curiam) (reiterating standard).
Federal court review of underlying state court decisions is limited and deferential.
Morales v. Ault, 476 F.3d 545, 549 (8th Cir. 2007). Except for certain kinds of error that require
automatic reversal, even when a state petitioner’s federal rights are violated, “relief is
appropriate only if the prosecution cannot demonstrate harmlessncss.” Davis v. Ayala, 576 U.S.
257, 267 (2015). “Formlessness” in the context of § 2254 means “the federal court has grave
2

r*
Case 4:15-cv-0Q46J-JEG Document 54 Filed 09/14/20 Page 3of 12

doubt about whether a trial error of federal law had substantial and injurious effect or influence
in determining the jury’s verdict.” • Id. at 267-68 (internal citations omitted). This standard
requires “more than a 'reasonable possibility’ that the error was harmful.” Id. at 268. These
strict limitations reflect that habeas relief is granted sparingly, reserved for “extreme malfunc­
tions in the state criminal justice systems” and “not as a means of error correction.” Greenev.
Fisher, 565 U.S. 34, 38 (2011). .
Ill, DISCUSSION OF CLAIMS
Following Heemstra’s conviction and while his appeal was pending, the Iowa Supreme
Court decided State-v; Heemstra, 72.1 N.W.2d 549, 558 (Iowa 2006). See Davis II, 2015 LEXIS
672, at * 2. Prior to Heemstra, “a consistent line of authority had upheld the use of a felony­
murder instruction even in cases where the felony and the murder were the same act.” Nguyen
v. State, 829 N.W.2d 183, 188 (Iowa 2013). In 2006, the Iowa Supreme Court made a signifi­
cant change in the law, holding that “if the act causing willful injury is the same act that causes
the victim’s death, the former is merged into the murder and therefore cannot serve as the
predicate felony for felony-murder purposes.”- Heemstra, 721 N.W.2d at 558. The Iowa
Supreme Court also ruled the change in law would'not be applied retroactively except to “those
cases not finally resolved on direct appeal in which the issue has been raised in the district *■
court.” Id.
Appellate briefs in Heemstra were filed throughout 2005, the same year Davis was charged
with first degree murder. Pet’r’s Br. 2, ECFNo. 42. The Iowa Supreme Court retained the
Heemstra case on December 18, 2005. Id. Davis’ counsel did not raise any Heemstra-type
issue before the trial court. Davis II, 2015 Iowa App. LEXIS 672, at *2. Davis was convicted
on December 27;j 2005. Pet’r’s Br. 2, ECF. No. 42. The district court did not specify whether
it found Davis guilty of first-degree murder based on a premeditated act*or felony murder. '
Davis II, 2015 Iowa App. LEXIS 672, at * 1-2.

3

»-

. Case 4:15-cv-00461-JEG Documents Filed 09/14/20 Page 4 of 12

Heemstra was argued to the Iowa Supreme Court on January 19, 2006. Pet’r’s Br. 3, ECF
No. 42. A week later, Davis filed his principal brief but did not raise any Heemstra-type issue.
Id. Heemstra

decided in August of 2006, and Davis’ appellate counsel immediately fiied

for, but was denied, leave to amend his brief to raise a Heemstra-typs argument. Id.
Following his direct appeal, Davis filed an application for postconviction relief in state
court, alleging trial counsel was ineffective for failing to make the merger argument at his own
trial. See Davis II, 2015 Iowa App. LEXIS 672, at *3. The district court denied relief. Id.
The Court of Appeals affirmed the district court, concluding counsel did hot perform deficiently
by failing to anticipate the ruling in Heemstra. Id. at *3-4.
Davis argues here that both trial and appellate.counsel were constitutionally ineffective for
failing to be aware of the claims being made in Heemstra and failing to raise the same arguments
in his case as were raised in Heemstra. Pet’r’s Br. 5—6, ECF No. 42. ■ .

‘

;;

A. Ineffective Assistance of Counsel Generally
To demonstrate constitutionally ineffective assistance under the Sixth Amendment to the
United States Constitution, a petitioner must show (1) counsel’s representation was deficient, and
(2) the deficiency was prejudicial. Strickland v: Washington, 466 U.S. 668, 687 (1984). The
first prong is established when a petitioner shows counsel’s performance fell below an objective
standard of reasonableness. Id. at 687-88. Prejudice is demonstrated with “a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different. A reasonable probability is a probability sufficient to.undermine confidence in
the outcome.” Id. at 694.
When analyzing Strickland under the AEDPA standard of review, the review by the district
court is "doubly deferential.” Cullen v. Pinholster, 563 U.S. 170, 202 (2011). "[Fjederal
courts are to afford ‘both the state court and the defense attorney the benefit of the doubt.’”
Etherton, 136 S. Ct. at 1151 (internal quotation omitted).

4

*

a
Case 4:15-cv-0046K)EG . Document 54 Filed>09/14/20 Page 5 of 12

B. Ineffective Assistance of Trial Counsel
Davis asserts trial counsel was ineffective for failing to raise a Heemstra-type claim, and he
cannot now receive the benefit of the change in Iowa law. Pet’r’s Br. 6, ECF No. 42. The
Iowa Court of Appeals held counsel had “no obligation to anticipate changes in the law.” Davis
II, 2015 Iowa App. LEXIS 672, at *3. Instead, the Court focused “on whether a reasonably
competent attorney would have raised the issue in controversy.” Id. “The test to determine
whether counsel is required to raise an issue is ‘whether a normally competent attorney would
have concluded that the question ... was not worth raising.”’ Id. at *3^4 (quoting State v.
Graves, 668 N.W.2d 860, 881 (Iowa 2003)). Davis argues this conclusion resulted in both (1) a
decision that was unreasonable in light of clearly established Supreme Court law, and (2) a
decision based on an unreasonable determination of the facts. Pet’r’s Br. 8, ECF No. 42.
The Court first addresses whether the decision of the Iowa Court of Appeals was based on
an unreasonable determination of the facts., Davis contends counsel, was not aware the felony
murder issue was ripe for change. Id. at 11. In support of his argument, Davis cites to the trial
counsel’s testimony at the postconviction relief hearing:
Q: This trial happened in December of 2005, correct?
.. A: I thinkdt started in December, right.
Q: At that time were you aware that there were attorneys challenging application of
a felony murder rule at that point still unsuccessfully?
A: The felony murder rule hadn’t changed at that time. I think - I wasn’t aware of
any specific attorney doing it, challenging the felony murder rule. I think attorneys
do that off and on, but I wasn’t aware of any specific challenges.
Q: In your motion for a new trial, did you do anything to challenge to old application
of the felony murder rule as it stood at that point?
A: I don’t believe so. That wasn’t the law at the time.
Q: Isn’t it true that Iowa’s interpretation of the felony murder rule at that point was
significantly different from most states?
5

Case 4:15-cv-0046i-JEG: Document 54 Filed 09/14/20 Page 6 of 12

A: I practiced in Iowa and Illinois at the time, so for other states I cou!dn?t tell you.
With regard to Iowa, Iowa shifted in ’06 to Heemstra, and Heemstra’s been
developing ever since, but at the time that was not the law.
Q: If you recall, was there anything in the Court’s verdict or findings of fact and
conclusions of law that indicated whether the conviction, the verdict was based on
the felony murder rule or on actual intent?
A: I haven’t seen the ruling in so long that I don’t remember it, so I can’t answer that
question now.
Pet’r’s Second Supp. App. 109, ECF No. 44. Trial counsel also acknowledged he made no
“type of objection to instructions or the law utilized by the Court that we tried it to.” Id. at 113.
Rather than address counsel’s lack of information, Davis argues the Iowa Court of Appeals
summarily concluded counsel was not expected to predict changes in the law. Id. at Pet’r’s Br.
11, ECF No. 42. Davis contends a normally competent attorney must first be aware of emerging
areas of the law in order to determine whether an issue was worth raising. Id. at 11-12. This is
especially true, he argues, when the issue was ultimately retained by the state’s supreme court,
signifying “to defense counsel in the state that not only was a challenge being made, but it was
meritorious enough for the Supreme Court to retain the issue for immediate determination.” Id.
at 11.
As pointed out by Respondent, however, Heemstra did not solely challenge his conviction
based on the felony murder instruction but also raised issues related to medical records evidence
and alleged jury misconduct. See Heemstra, 721 N.W.2d at 552. “Heemstra overturned more
than twenty years of precedent which had explicitly allowed a felonious assault to serve as the
predicate felony for felony-murder purposes.” Miller v. Fayram, 2010 U.S. Dist. LEXIS
157712 (S.D. Iowa May 27, 2010). Given this history, it would have been reasonable to
conclude the Iowa Supreme Court planned to address one of the other issues rather than the
felony-murder rule. Retention of the Heemstra case did not, in and of itself, change existing
law. Consequently, it did not create a duty for trial counsel to raise an objection that had been
consistently overruled.
6

*

Case 4:15-ov-00461-JEG .Document 54 Filed 09/14/20 Page 7 of 12

Davis also focuses on the fact that trial counsel was licensed in Illinois as well as Iowa, and
Illinois had previously established the predicate felony could not be a felony that is inherent in
the murder itself. Pet’r’s Br. 11, ECF No. 42 (citing People v. Toney, 785 N.E.2d 138, 146-47
(Ill. 2003) (“because the predicate felonies arose from and were inherent in the murders of the
two victims, the forcible felonies could not serve as predicate felonies for felony murder/’).
Testimony from trial counsel at the postconviction relief hearing established he did not know
whether iqwa’s interpretation of the felony murder rule was significantly different from most
states because.he only practiced in Iowa an<?Illinois. Pet’r’s Second Supp. App. 109, ECF No.
44. Regardless of whether he knew about the merger rule in Illinois, he knew “at the time that
was not the law” in Iowa. Id. Thus, what trial counsel knew, or did not know about Illinois law
was irrelevant.
. Davis relies on these same reasons to support his second argument, that is, the decision of
the Iowa Court of Appeals is contrary to, and an unreasonable application of United States
Supreme Court law, namely, Strickland. Pet’r’s Br. 12, EOF No. 42. According to Davis,
Strickland requires an individualized assessment of an attorney’s performance to determine
whether the actions of any particular attorney were reasonable. Id. The Iowa courts, argues
Davis, held “wo attorney would ever have to have objected to willful injury as predicate, felony
despite the context.” Id. (emphasis added).,
Davis argues defense counsel are responsible for more “than simply applying establish
precedent.” Id. at 13. For example, the United States Supreme Court held defense counsel
performed deficiently when he provided incorrect information to a noncitizen client regarding
deportation, a collateral consequence of his conviction. Padilla v. Kentucky1, 559 U.S. 356, 368—
69 (2010). Strickland, he argues, requires defense counsel to “remain abreast of changes in the
law and its practice.” Pet’r’s Br. 13, ECF No. 42 (quoting Chaidez v. United States, 568 U.S.
342, 367 (2013) (J. Sotomayor, dissenting)).
In Padilla, counsel was found constitutionally ineffective because he gave erroneous
advice to his client about a collateral consequence to pleading guilty. Padilla, 559 U.S. at 359.
7

J*,

Case.4:15-cv-00461‘-JEG' Document 54 -Filed 09/14/20 Page 8 of 12

Counsel for Davis; however, did not fail to act based on a wrong understanding of the law.
Instead, “[a]t the time of Davis’s trial, willful injury was still a valid predicate felony for the
felony-murder rule.” Davis II, 2015 Iowa App. LEXIS 672, at *3.
“Reasonableness” depends on “prevailing professional norms” at the time counsel acted,
with “every effort... made to eliminate the distorting effects of hindsight,... to evaluate the
conduct from counsel’s perspective at the time,” Strickland, 466 U.S. at 688-89. ' “‘A1 fanassessment of attorney performance requires that every effort be made to eliminate the distorting
£
effects of hindsight, to reconstruct the circumstances of counsel’s challenged conduct, and to
evaluate the conductfrom counsel’s perspective at the timeDavis v. United States, 858 F.3d
529, 534 (8th Cir. 2017) (alteration in original) (quoting Strickland, 466 U.S. at 689)).
The best attorney will stay updated about new trends across the criminal law landscape
and monitor the Iowa Supreme Court for potential changes to that law. However, failure to do
so is not per se constitutionally ineffective if counsel’s decisions at the time of trial are based on
accurate knowledge of current law. “Under the Constitution, a defendant is only guaranteed
adequate, not exceptional counsel.” Brown v. United States, 311 F.3d 875, 877 (8th Cir. 2002)..
In Brown, counsel failed to make an Apprendi-type argument to the Court even though similar
claims were being made and were reasonably available prior to the Supreme Court’s decision.
Id. at 878. Although Brown argued counsel was ineffective for failing to have made the
argument, the United States Court of Appeals held “counsel’s decision not to raise an issue
unsupported by then-existing precedent did not constitute ineffective assistance.” Id.
“A fair assessment of attorney performance requires that every effort be made to eliminate
the distorting effects of hindsight, to reconstruct the circumstances of counsel’s challenged
conduct, and to evaluate the conduct from counsel’s perspective at the time.” . Strickland, 466
U.S. at 689. Counsel may not have been aware of emerging trends in the felony murder law or.
that the Iowa Supreme Court had retained Heemstra, which raised a felony murder issue. None­
theless, at the time of Davis’ trial, “willful injury was still a valid predicate felony for the felony­
murder rule,” Davis II, 2015 Iowa App. LEXIS 672, at *3, and counsel was not constitutionally
8

%

>

54,

Case 4:15-cv-00461-JEG Document 54 Filed 09/14/20 Page 9 of 12

deficient for limiting arguments to existing law or for failing to raise an issue unsupported by
then existing precedent.
In sum, the decision of the state court was not ‘“so lacking in justification that there was an
error well understood and comprehended in existing law beyond any possibility for fairminded
disagreement.’”. Etherton, 136 S. Ct. at 1151. The decision of the Iowa courts regarding
ineffective assistance of trial counsel was both a reasonable determination of the facts and was
not contrary to or an unreasonable application of Strickland.
Because it agrees with the conclusion that trial counsel did not perform deficiently, the
Court does not need to address the issue of prejudice. Strickland, 466 U.S. at 697 (“there is no
reason for a court deciding an ineffective assistance claim to approach the inquiry in the same
order or even to address both components of the inquiry if the defendant makes an insufficient
sho,wing on one.”).
C. Appellate Counsel2
Using the same arguments, Davis contends appellate counsel was also ineffective for
failing to raise a Heemstra-iypz argument in his initiai appeal brief, asserting “appellate counsel

2 Davis raises this claim in Ground One of his Amended Petition, alleging “[tjrial and appellate
counsel did not object to or appeal willful injury being a predicate offense for felony murder as
raised in [Heemstra].'' Am. Pet. 5, ECF No. 11-1. Respondent filed a motion to dismiss
Grounds Two and Three of the Amended Petition but in the brief in support of the motion to
dismiss, conceded Ground One had finished “a complete cycle of state-court review.” Mo.
Dismiss 2, ECF No. 25-1.
. The Court is unable to identify where the issue of ineffective assistance of appellate counsel
was preserved before the Iowa courts. On postconviction relief, the trial court considered
Davis’ argument of ineffective assistance of trial counsel for failing to make a Heemstra
challenge. Resp’f s App. 142, 146, ECF No. 24. The postconviction relief appeal brief raised
the issue as wnether “trial counsel [hadj to investigate and argue for a change in law when the
law was changed shortly after the Applicant’s trial.” Resp’f s App. 7, ECF No. 22-14. The
Iowa Court of Appeals framed the issue as a challenge to “the postconviction court’s finding that
Davis’s trial counsel was not ineffective for failing to challenge the felony-murder law.” Davis
II, 2015 Iowa App. LEXIS 672, at *3. The Application for Further Review also was limited as
to whether “trial counsel was ineffective in not preserving the Heemstra issue”). Resp’t’s App.
2, ECF No. 22-19. These arguments focus on trial counsel’s performance, and none raised the
issue in the context of appellate counsel.
9

>s

Case 4:15-cv-00461-JEG. Document-54 Filed 09/14/20 Page 10 of 12

presumably is in an even better position than trial counsel to be up-to-date on emerging legal
issues, like the Heemstra issue was in early 2006.” Pet’r’s Br. 15, ECF No. 42.
‘To demonstrate that appellate counsel was ineffective, a petitioner ‘must first show that
his counsel was objectively unreasonable in failing to find arguable issues to appeal—that is, that
counsel unreasonably failed to discover nonfrivolous issues and to file a merits brief raising
them.’ He must then ‘show a reasonable probability that, blit for his counsel’s unreasonable
failure to file a merits brief, he would have prevailed on his appeal.’” Williams v. Ludwick, 761
F.3d 84-1, 845 (8th Cir. 2014) (quoting Smith v. Robbins, 528 U.S. 259, 285 (2000)); Davis argues appellate counsel was unconstitutionally ineffective for failing to include a
Heemstra-type argument in his principal brief. Pet’r’s Br. 15, ECF No. 42. The parties do not
point to, and the Court cannot find, anything in the record to suggestwhether appellate counsel'
was aware of developments in the felony-murder law. Regardless, Iowa Courts had consistently
rejected this type of argument for over twenty years. Even though the issue had been argued to :
the Iowa Supreme Court at the time of the appeal, a reasonable attorney “could easily conclude a
challenge to a law that had always failed would continue [to], fail and thus was not worth
raising.” Davis II, 2015 Iowa App. LEXIS 672, *4. Appellate counsel had no duty to raise an
argument Iowa courts repeatedly rejected as meritless. See Thai v. Mapes, 412 F.3d 970, 978 .
“A petitioner who has not availed himself of a state’s post-conviction procedure should be
required to do so unless he has no available, nonfutile remedies or the state waives the
exhaustion requirement.” Murray v. Wood, 107 F.3d 629, 631 (8th Cir. 1997) (citing Duvall v.
Purkett, 15 F.3d 745, 746 (8th Cir. 1994)). Respondent does not appear to be waiving
exhaustion of this issue, but instead is making a statement regarding the procedural posture of the
issue. See Hampton v. Miller, 927 F.2d 429, 431 (8th Cir. 1991) (quoting Purnell v:Missouri
Dep’t of Corrs., 753 F.2d 703, 708 (8th Cir. 1985) (“When the State ‘unequivocally concedes in
pleadings that a petitioner's claims in the appropriate state courts have been exhausted, that con­
cession constitutes an express waiver.’”). Thus, the Court will not treat this as a waiver.
Even if the issue has not been exhausted, however, a petition for habeas corpus relief “may
be denied on the merits, notwithstanding the failure of the applicant to exhaust the remedies
available in the courts of the State.” 28 U.S.C. § 2254(b)(2); see also Padavich v. Thalacker,
162 F .3d 521, 522 (8th Cir. 1998) (“exhaustion rule is not a rule ofjurisdiction, and sometimes
‘the interests of comity and federalism [are] better served by addressing the merits.’”) (internal
quotations omitted). The Court finds it is the interests of comity and federalism to proceed to
address the merits of this claim.
10

*

» .

Case 4:15-cv-00461;JEG Docume.nt.54 Filed 09/14/20 Page'11 of 12

(8th Cir. 2005) (“Thai cannot show that his counsel performed deficiently by failing to. raise a meritless argument.”).
Moreover, the Court finds no prejudice. Davis argues that had appellate counsel raised
such a claim, the issue would have been before the lowa.courts to address. Pet’r’s Br. 15, ECF
No. 42. The record demonstrates, however, that counsel did give the Iowa courts an opportunity
to address the claim. Although he did not raise the issue in his initial brief, appellate counsel
moved to amend the brief a week after Heemstra was decided. Id. at 3. Thus, if it had chosen
to do so, the Iowa Supreme Court could have addressed the issue. Instead, it rejected appellate
counsel’s attempt to raise the issue, reaffirming its intention to apply Heemstra only to those
cases where it was first raised before the trial court. Thus, even if counsel had raised it in his
principal brief, the Iowa Supreme Court would have rejected the merits of the claim for the same
reasons it rejected appellate counsel’s request to amend his brief. There is no reasonable proba­
bility that, but for counsel’s failure to make this claim inhis initial brief he would have prevailed
on the Iowa Supreme Court toapply Heemstra retroactively to his case.
IV. SUMMARY AND CONCLUSIONS
Based on the above discussion, the Court finds Davis is not entitled to federal habeas
corpus relief on Ground One of the petition. The Court previously dismissed Grounds Two and
Three. See Order, ECF No. 35. This petition for habeas corpus relief is DENIED and
DISMISSED.
Pursuant to Rule 11(a) of the Rules Governing Section 2254 Proceedings in the United
States District Courts, “the district court must issue or deny a certificate of appealability when it
enters a final order adverse to [a petitioner].” District Courts have the authority to issue certifi­
cates of appealability under 28 U.S.C. § 2253(c) and Fed. R. App. P. 22(b). “A certificate of
appealability may issue ... only if the applicant has made a substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2). Such a showing means “petitioner must

11

Case 4:15-cv-00461-JEG Document 54 Filed 09/14/20 Page 12 of 12
! ;

j.

j

demonstrate that reasonable jurists would find the district court’s assessment of the constitutional
claims debatable or wrong.” Slack v, McDaniel, 529 U.S. 473, 484 (2000).
The Court recognizes the factual similarities between this case and Heemstra and the stark
difference in outcomes. “However, the Iowa,state, courts determined that the Heemstra decision
would not be applied retroactively, and accordingly,.the federal courts cannot unravel this
particular byzantine knot.” Dixon v. Wachtendorf 758 F.3d 992, 994 (8th Cir. 2014).
Davis has not made a substantial showing of the denial of a constitutional right on any of
his claims, and the Court DENIES a certificate of appealability. Davis may request issuance of
a certificate of appealability by a judge on the Eighth Circuit Court of Appeals. See Fed. R.
App. P. 22(b).
i

IT IS SO ORDERED.

3

Dated this 14th day of September, 2020.

i

JAMES E. GRITZNER, Se^or Judge
U.S. DISTRICT COURT
* r

>

V

12

RPPG
* "•

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
, ?

No: 20-3082
:«

Ambus Ray Davis, III
'

Petitioner - Appellant

4

V.

*

V.

'i

Nick Ludwick, Warden
Respondent - Appellee
j

v.

Appeal from U.S. District Court for the Southern District of Iowa - Central
(4:15-CV-00461 -JEG)
1

>

JUDGMENT
V

Before LOKEN, BENT.0N,, ahd QRASZ, Circuit Judges.
C

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
January 05, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
i

T
.V

:

■*; ;i

FHPP.-X

.

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3082
Ambus.Ray Davis, III
Appellant
v.
Nick Ludwick, Warden
Appellee

Appeal from U.S. District Court for the Southern District of Iowa - Central
(4:15-cv-004(> 1 -JEG)
ORDER
The petition for rehearing by the panel is denied.
.March 23, 2021

Order Entered, at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

WVA
20-3082 Ambus Davis, III v. Nick Ludwick
Eighth Circuit Court of Appeals
PRO SE Notice of Docket Activity
The following was filed on 03/02/2021
Case Name: Ambus Davis, III v. Nick Ludwick
Case Number: 20-3082
Docket Text:
PETITION for rehearing by panel filed by Appellant Mr. Ambus Ray Davis, III w/service by
USCA8 03/02/2021. [5009918] [20-3082]
The following document(s) are associated with this transaction:
Document Description: Petition for Rehearing
Notice will be mailed to:
Mr. Ambus Ray Davis III
IOWA STATE PENITENTIARY
6179704
P.O.Box 316
Fort Madison, IA 52627
Notice will be electronically mailed to:
Ms. Angela L. Campbell: angela@dickeycampbell.com, taylor@dickeycampbell.com
Mr. Aaron James Rogers: aaron.rogers@ag.iowa.gov,
benjamin.parrott@ag.iowa.gov,catie.johnson@ag.iowa.gov,tim.hau@ag.iowa.gov,elizabeth.dick
ey@ag.iowa.gov,kristle.finck@ag.iowa.gov

Additional material
from this filing is
available in the
Clerk's Office.

